*/■
If

/

CERTIFICATE OF SERVICE
No.

IN THE

Supreme Court of tlje Sinttetr States;
MIREK MACHALA,
Petitioner,
v.
LIBUSE KRAL and NICHOLAS A. BROWN,
Respondents.
On Petition for Writ of Certiorari to
The District of Columbia Court of Appeals

PETITION FOR WRIT OF CERTIORARI

I, Mirek Machala, do declare that on this date.
2^2020. as required by
Supreme Court Rule 29 I have served the enclosed PETITION FOR WRIT OF
CERTIORARI on each party to the proceeding by depositing an envelope
containing the above document in the United States mail properly addressed to
each of them and with first-class mail postage prepaid , or by personal delivery to
the party’s office.
Document was hand-delivered to the following recipient on this date:
. 2020.
March. if
JACKSON & CAMPBELL P.C.
Roy L Kaufmann, Esq.
1120 Twentieth Street, NW
Building One - South 3rd Floor
Washington, DC 20036
Counsel for Defendant Libuse Krai

t

and mailed via USPS First Class Mail, postage prepaid, to the following recipient:
McNamee Hosea
Craig M. Palik, Esq.
6411 Ivy Lane, STE 200
Greenbelt, MD 20770
Counsel for Defendant Nicholas A. Brown
I declare under penalty of perjury that the foregoing is true and correct.

Executed on

,2020.

:rek machala

